9

No.
IN THE
SUPREME COURT OF THE UNITED STATES

Dominique Little
PETITIONER

vs.

District of Columbia Public Schools, et al.
RESPONDENT(S) •

ON PETITION FOR A WRIT OF CERTIORARI TO

District of Columbia Court of Appeals

Dominique Little
5133 Fitch Street SE#201
; Washington, DC 20019
(202) 486-9434
Missdlittle2010(a); email, com

10

I.

QUESTION(S) PRESENTED

Who is responsible for holding public officials of the law accountable for 1) violating a
citizen of the United States God-given rights protected by the US Constitution and 2) for
breaking the very laws they were sworn in themselves to honor and uphold?

11

II.
LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:
DISTRICT OF COLUMIA
PULIC SCHOOLS
10th FLOOR
1200 FIRST STREET NE
WASHINGTON DC 20002
OFFICE OF HUMAN RIGHTS
441 4th STREET NW
SUITE 570N
WASHINGTON DC 20001

RELATED CASES
Dominique Little % SG v. DISTRICT OF COLUMBIA PUBLIC SCHOOLS
District of Columbia Superior Court Case No. 2018 CA 006125 B
Dominique Little % SG v. OFFICE OF HUMAN RIGHTS
District of Columbia Superior Court Case No. 2018 CA 006126 B
Dominique Little v. DISTRICT OF COLUMBIA PUBLIC SCHOOLS, et al.
District of Columbia Court of Appeals Nos. 19-CV-133 & 19CV-735

12

TABLE OF CONTENTS
OPINIONS BELOW...................................................................................
JURISDICTION............. ................................................................ .............
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.................................................................
REASONS FOR GRANTING THE WRIT..............................................
CONCLUSION.............................................................................................

14
15
16
17
21
21

INDEX TO APPENDICES
APPENDIX A-Decision of State Court of Appeals
APPENDIX B-Decision of State Trial Court........ .

22
23

13

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Evans v Evans App. DC, 441 A.2d 929 (1982)
Fritz v. Gise), 797 A.2d 710, 713-14 (D.C. 2002) (quoting Berry v. Klinger, 300 S.E., 2d 792,
796 (Va. 1983)
Hilska v Jones 217 F.R.D. 16, 2003 U.S. DIST.
Kim Kelly v. Crawford Edgewood Manager No. ll-CV-210
Monell v Department of Social Services of City of New York, 436 US 658
United States v Williams, 553 US 285, 304 (2008)

STATUTES AND RULES
D.C. Super. Ct. R. Civ. p.77
D.C. Super. Ct. R. Civ. p.5
D.C. Super. Ct. R. Civ. p.4
Fed. R. Civ. p. 12(4) and (5)

OTHER LAWS (regulations, ordinances)
42 U.S.C Section 1983
D.C. Code 2-1403.07 (2002)
Due Process Clause of 14th Amendment

14

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
T'

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix to the petition and
is [ ] reported at; or, [ ] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
The opinion of the United States district court appears at Appendix to the petition and is [
] reported at; or, [ ] has been designated for publication but is not yet reported; or, [ ] is
unpublished.

[V ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix to the
petition and is [ ] reported at; or, [ ] has been designated for publication but is not yet
reported; orj [V ] is unpublished.
The opinion of the court appears at Appendix to the petition and is [ ] reported at; or, [ ]
has been designated for publication but is not yet reported; or, [V ] is unpublished.
1

■s

15

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was .
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on
the following date: , and a copy of the order denying rehearing appears at Appendix .
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on (date) in Application No. A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[V ] For cases from state courts:
The date on which the highest state court decided my case was August 20, 2020. A copy
of that decision appears at Appendix .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

16

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution, Amendment XIV:
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

42 U.S. Code § 1983.Civil Action for Deprivation of Rights
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or immunities secured by the Constitution and
laws, shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an
act or omission taken in such officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief was unavailable.
For the purposes of this section, any Act of Congress applicable exclusively to the
District of Columbia shall be considered to be a statute of the District of Columbia.

17

STATEMENT OF THE CASE

In Monell, 436 U.S. at 690 “a government entity may be held liable under 42
U.S.C. $ 1983 if an ‘action that is alleged to be unconstitutional implements or executes a
policy statement, ordinance, regulation, or decision officially adopted and promulgated
by that body’s officers.’” Plaintiff (Little) was targeted by Defendant ( Principal
Hairston) of daughter’s elementary school (CW Harris Elementary DCPS) since 2015
when Plaintiff and her daughter returned to the school in May of 2015.
Plaintiff has always been an active and involved parent in her daughter’s
education. Being bullied herself in the DCPS system, Little wanted to ensure that her
daughter received the best education possible, no matter what school her daughter
attended.
Little and her daughter left CW Harris upon completing SY 2013-2014 in 2014 to
attend a new school, Hairston was not the principal at CW Harris. There was an interim
principal there during that time. In May of SY 2014-2015, Little and her daughter
returned to their neighboring school (CW Harris). Upon returning, Hairston was the new
principal. While waiting in the office for the paperwork to be processed, Hairston walked
pass Little 2-3 times without acknowledging Little, who in this case, was a new parent
with a new student sitting in the front office.
A few of Little’s daughter’ friends saw them sitting in the office and was very
excited to see them again and came over to greet them. Hairston noticed the few students
standing there talking to Little’s daughter and approached the students. Hairston first
asked the students “where are you supposed to be girls?” The students responded “in

18

class Ms. Hairston.” Hairston responded “well I suggest you get there and take the Holy
Spirit with you.” Little stood up and introduced herself to Hairston stating that she was a
new parent and told Hairston her name. Hairston responded, “I’m Principal Hairston” and
walked away.
CW Harris had developed a policy that if one student misbehaved in class, the
whole class would have recess detention. On a 90 degrees, hot summer day, Little’s
daughter, who has always been an honor roll, perfect attendance, well-mannered student,
was telling Little about her day at school and mentioned having recess detention and as
punishment, had to stand against the wall outside on the playground while the other class
had a chance to play, because of the action of another student in her class.
Little found a DCPS policy that stated “all DCPS students should have at least 20
minutes of recess per day.” Little informed CW Harris’ administration of this policy and
requested that her daughter not to be punished due to other’s actions, afraid that this
would in turn deter her daughter from doing her best since she would be punished for it
anyway. Little also requested that the DCPS recess policy is enforced for all students.
Little’s requests were disregarded.
In SY 2015-2016, Little persisted that CW Harris adopt the DCPS recess policy
for all students and started a PTA at CW Harris. Hairston used her authority in an attempt
to dismantle the PTA. For instance, she would tell us that our reserved room was
unavailable. Once we had an ANC member and Board Members of the neighborhood
community to attend one of our PTA meetings and Hairston’s assistance, who was a
disruptive parent, attended the meeting and yelled and cursed at Little every time she
attempted to speak.

19

In May 2016, Hairston rejected a doctor’s note and handwritten note for her
daughter’s absence from school due to an asthma attack Little’s daughter had after school
the previous day. Due to this 1 “unexcused” absence, Little’s daughter was unable to
attend the end of the school year Awards Banquet in June.
Little filed a complaint with The Office of Human Rights in DC in January 2017
against Hairston. The Office of Human Rights entered a Settlement Agreement in
October 2017 in favor of Plaintiff. Defendants violated the terms of the Settle Agreement.
Little contacted the Office of Human Rights to inform them that the agreement terms had
been violated. Little requested further action to deter the disregard of policy &
compliance by this governmental agency. The Office of Human Rights disregarded
Little’s request and their own policy written in the Settlement Agreement under Tenn
#15 Breach of Agreement.
In United States v Williams, this court held that our cases have described vague statutes as
failing to provide a person of ordinary intelligence fair notice of what is prohibited , or [as being]
so standardless that [they authorize(s) or encourag[e] seriously discriminatory enforcement. 553
U.S. 285, 304 (2008).

This case presents the question of who is responsible for holding the decisions of a government’s
lawmakers, the acts and behaviors of its policymaking officials and their practices that are so
persistent and widespread as to practically have the force of law (Monell) which violates
constitutional rights, human rights, national and state codes, laws, mandates, policies,
ordinances, regulations and statutes such as Section 1983 and contract breaches.

20

How can ordinary citizens of a country be law abiding citizens if the lawmakers of that country
intentionally disregard laws? DCPS not only violated constitutionally protected rights of Plaintiff
but also disregarded terms of a settlement agreement that would right their wrongs.
In addition, Office of Human Rights did not follow the procedures of the Agreement drawn up
by Office of Human Rights.

21

REASONS FOR GRANTING THE PETITION
Liberty and Justice is the base of all civil and political institutions and principals of the
Fourteenth Amendment. Indeed, it was a desire for government accountability in the face of
perceived abuses that ignited the movement toward the foundation of our country.

CONCLUSION
For the foregoing reasons, Plaintiff Little respectfully requests that this Court issue a writ of
certiorari to review the judgment of the District of Columba Court of Appeals.

DATED this 25th day of September.

Respectfully Submitted

/^OoruJ^t.
Dominique Little

5133 Fitch Street, SE#201
Washington, DC 20019
(202) 486-9434
missdlittle2010@gmail.com

